M-121806 (07/20)
VISA CARDHOLDER AGREEMENT AND DISCLOSURE STATEMENTTINKER FEDERAL CREDIT UNION – VISA
Interest Rates and Interest Charges
ANNUAL
3.99% introductory rate on purchases for 6 months from date of account opening; thereafter, the
PERCENTAGE RATE
APR is set by your credit rating at the time of account opening.*
(APR) for Purchases

8.15% Rate 2 – 9.15%
Rate 4 – 12.15% Rate 5 – 14.15%
Option “B”
Rate 1 – 8.75% Rate 2 – 9.75%
Rate 4 – 12.75% Rate 5 – 14.75%
Option “A”

APR for Balance
Transfers

Rate 1 –

Rate 3 –

10.15%

Rate 3 –

10.75%

The APR will vary with the market based on the Prime Rate.
Option “A” Rate 1 – 8.15% Rate 2 – 9.15% Rate 3 – 10.15% Rate 4 – 12.15% Rate 5 – 14.15%
Option “B” Rate 1 – 8.75% Rate 2 – 9.75% Rate 3 – 10.75% Rate 4 – 12.75% Rate 5 – 14.75%

APR for Cash Advances

Balance transfer APR: The current program APR which will be set by your credit rating at the time of
account opening.* The APR will vary with the market based on the Prime Rate.
Option “A” Rate 1 – 8.15% Rate 2 – 9.15% Rate 3 – 10.15% Rate 4 – 12.15% Rate 5 – 14.15%
Option “B” Rate 1 – 8.75% Rate 2 – 9.75% Rate 3 – 10.75% Rate 4 – 12.75% Rate 5 – 14.75%

Paying Interest

For Credit Card Tips
from the Consumer
Financial Protection
Bureau
Fees
Set-Up and Maintenance
Fees
● Annual Fee
Transaction Fees
● Balance Transfer
● Cash Advance
● Foreign Transaction
Penalty Fees
● Late Payment

Cash advance APR: The current program APR which will be set by your credit rating at the time of
account opening.* The APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you any
interest on purchases if you pay your entire balance by the due date each month. We will begin charging
interest on cash advances and balance transfers on the transaction date.
To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

Option “A” - $25
Option “B” – None

None.
None.
1% of each transaction in U.S. dollars.
Up to $22 -If your minimum monthly payment is not received by us on the due date on your monthly
statement, we may impose a late fee of up to $22 which will be reflected on the following monthly
statement.
● Returned Check Fee
Up to $20 - the Credit Union may charge a return check fee for each return by a bank or other depository
institution of a dishonored check, negotiable order of withdrawal or share draft issued by cardholder(s)
as payment on the credit card account.
$2 - the Credit Union may charge a $2.00 fee for each duplicate copy of requested monthly billing
Other Fees
● Statement Copy
statement(s).
● Ticket Copy
The Credit Union may charge for each duplicate copy of requested sales slip(s). However, if the request
for a duplicate copy of a sales slip is in connection with any disputed billing matter, (see “YOUR
BILLING RIGHTS”), a fee will not be imposed.
$25 - Travel and Entertainment documents
$6 - Original sales slip
$5 - Photocopy of sales slip
● Card Replacement Fee
$13 - the Credit Union may charge for each credit card that is reissued prior to the current cards
expiration date.
How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new purchases).” See the
INTEREST CHARGE CALCULATION METHODS section of this cardholder agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is included in this cardholder
agreement under the YOUR BILLING RIGHTS section.
*The credit score ranges are as follows: Rate 1 (740 and above) Rate 2 (700-739) Rate 3 (660-699) Rate 4 (625-659) Rate 5 (0 to 624)
Your account must be open to receive a Year-End Purchase Summary and to use other program benefits.

1

DEFINITIONS
Except as the context otherwise requires (a) “Account(s)”
means my Visa credit card account established with Tinker
Federal Credit Union and governed by this Agreement; (b)
“Issuer” and/or “Credit Union” means Tinker Federal Credit
Union of P.O. Box 45750, Tinker Air Force Base, Oklahoma
73145; (c) “I,” “Me,” “We,” “My,” “Our,” “Mine,” “Us,”
“You,” “Your,” and Cardholder(s)” mean all persons who
have signed the application for Visa and/or used or permitted
others to use the card; (d) the “Card” or “Cards” means the
Visa card(s) enclosed herewith; (e) “Agreement” means this
document; (f) “Cash Advance” means all cash advances
obtained at any time through the use of the card from any
financial institution authorized to honor the cards; (g) “Credit
Limit” means the dollar amount Credit Union approved
against which I may borrow in accordance with this
Agreement; (h) “Application” means the credit application
I/We filled out and signed which is incorporated herein and
made a part of this Agreement; (i) “Prime Rate” means the
rate published daily in The Wall Street Journal under the
caption “Money Rates” and described as the base rate on
corporate loans at large United States money center
commercial banks. If the “Prime Rate” so published is a
range, the “Prime Rate” will mean the highest of the published
range.
AGREEMENT TO EXTEND CREDIT
Credit Union agrees to extend credit to cardholder and
advance amounts, up to cardholder’s credit limit, to pay for:
(i) all purchases of goods and services of whatever type and
nature made at any time through the use of the card at
businesses authorized to honor a card, and (ii) all cash
advances obtained at any time through the use of the card from
any financial institution or ATM authorized to honor a card.
PROMISE TO PAY AND PERSONS LIABLE
By signing the application, retaining, and/or using the card(s)
or allowing an authorized party to use the card(s), I/We
promise to pay to Credit Union, or anyone Credit Union
designates, all amounts loaned under this Agreement plus the
applicable interest charges, attorney’s fees, court cases or
other amounts that I/We owe Credit Union. If more than one
person applies for the card(s), each person will be issued a
card and will be a cardholder under this Agreement. The
cardholder whose name appears first on the application will be
considered the “Primary Cardholder.” The cardholder will be
responsible for all purchases, cash advances, and all interest
charges imposed under this Agreement. If there is more than
one cardholder for the account, each cardholder will be liable
for all amounts payable on the account regardless of which
cardholder is responsible for incurring such amounts. Each
cardholder will also be responsible for complying with all of
the other terms of this Agreement.
CREDIT LIMIT
The Credit Union has established an initial credit limit for
cardholder’s account(s) and reserves the right at any time, at
cardholder’s request or otherwise, to change the amount of
credit available through cardholder’s Visa account(s).
Cardholder agrees not to incur charges or to permit others to
incur charges that would result in credit in excess of
cardholder’s authorized amount. The Credit Union does not
allow over-the-limit charges as a term of this product. If the
credit limit should be exceeded, for any reason, even
inadvertently, cardholder agrees to pay the amount over the

limit immediately upon notice from the Credit Union.
Examples of inadvertent excess of credit limit include, but are
not limited to, returned payments and merchandise
authorizations.
INTEREST CHARGE CALCULATION METHODS
The interest charge calculation method applicable to your
account for cash advances and credit purchases of goods and
services that you obtain through the use of your card is
explained below. Calculation Method A is used to determine
the interest charge on cash advances. Calculation Method G is
used to determine the interest charge on purchases of goods or
services.
Method A – The interest charge on cash advances begins to
accrue on the date you obtain the cash advance or the first day
of the billing cycle in which it is posted to your account,
whichever is later. The interest charges for a billing cycle are
computed by applying the daily periodic rate to the average
daily balance multiplied by the number of days in the billing
cycle OR the monthly periodic rate to the average daily
balance during the billing cycle, which is determined by
dividing the sum of the daily balances during the billing cycle
by the number of days in the cycle. Each daily balance is
determined by adding to the previous balance (the outstanding
balance of your account at the beginning of the billing cycle)
any new credit purchases posted to your account and any new
cash advances received, and subtracting any payments as
received or credits as posted to your account, but excluding
any unpaid interest charges.
Method G – The interest charge on credit purchases begins to
accrue on the date each purchase is posted to your account.
To avoid incurring an interest charge on the balance of credit
purchases reflected on your monthly statement and on any
new credit purchases appearing on your next statement, you
must pay the new balance shown on your monthly statement
on or before the payment due date. The interest charges for a
billing cycle are computed by applying the daily periodic rate
to the average daily balance multiplied by the number of days
in the billing cycle OR the monthly periodic rate to the
average daily balance of credit purchases, which is determined
by dividing the sum of the daily balances during the billing
cycle by the number of days in the cycle. Each daily balance
is determined by adding to the previous balance of credit
purchases, any new credit purchases posted to your account
and subtracting any payments as received and credits as posted
to your account, but excluding any unpaid interest charges.
OPTION “A” VARIABLE RATE DISCLOSURE
The Annual Percentage Rate is initially determined by your
credit rating. I understand that the monthly periodic rates and
the Annual Percentage Rates are variable rates that may
change from time to time. The current effective rates are
disclosed on the insert the Credit Union has furnished to me
based on my credit score at the time of account opening. My
Annual Percentage Rate (APR) may change (increase or
decrease) from time to time based on movements in the Prime
Rate, published in The Wall Street Journal on the 25th
calendar day prior to the beginning of the calendar quarter. If
this date falls on a weekend or holiday, the published rate on
the next business day will be utilized. My new rate will not
become effective until after the end of my current billing cycle
in which movement of the Prime Rate dictates a change to the
Annual Percentage Rate currently in effect.
2

Rate 1 – If I receive Rate 1, the
adding 4.9% to the Prime Rate.
Rate 2 – If I receive Rate 2, the
adding 5.9% to the Prime Rate.
Rate 3 – If I receive Rate 3, the
adding 6.9% to the Prime Rate.
Rate 4 – If I receive Rate 4, the
adding 8.9% to the Prime Rate.
Rate 5 – If I receive Rate 5, the
adding 10.9% to the Prime Rate.

APR will be determined by
APR will be determined by
APR will be determined by
APR will be determined by
APR will be determined by

The periodic rate will be adjusted after the end of my current
billing cycle in each calendar quarter in which movement of
the Prime Rate dictates a change. Calendar quarters begin
January 1, April 1, July 1, and October 1 of each year. I
understand that my monthly periodic rate will be 1/12th of the
applicable APR. If there is an increase in the Prime Rate, my
minimum monthly payment may also increase. Likewise, if
the Prime Rate decreases, my minimum monthly payment may
also decrease. However, in no event will the Annual
Percentage Rate exceed 18.0% (which corresponds to a
monthly rate of 1.5%)
OPTION “B” VARIABLE RATE DISCLOSURE
The Annual Percentage Rate is initially determined by your
credit rating. I understand that the monthly periodic rates and
the Annual Percentage Rates are variable rates that may
change from time to time. The current effective rates are
disclosed on the insert the Credit Union has furnished to me
based on my credit score at the time of account opening. My
Annual Percentage Rate (APR) may change (increase or
decrease) from time to time based on movements in the Prime
Rate, published in The Wall Street Journal on the 25th
calendar day prior to the beginning of the calendar quarter. If
this date falls on a weekend or holiday, the published rate on
the next business day will be utilized. My new rate will not
become effective until after the end of my current billing cycle
in which movement of the Prime Rate dictates a change to the
Annual Percentage Rate currently in effect.
Rate 1 – If I receive Rate 1, the APR
adding 5.5% to the Prime Rate.
Rate 2 – If I receive Rate 2, the APR
adding 6.5% to the Prime Rate.
Rate 3 – If I receive Rate 3, the APR
adding 7.5% to the Prime Rate.
Rate 4 – If I receive Rate 4, the APR
adding 9.5% to the Prime Rate.
Rate 5 – If I receive Rate 5, the APR
adding 11.5% to the Prime Rate.

will be determined by
will be determined by
will be determined by
will be determined by
will be determined by

The periodic rate will be adjusted after the end of my current
billing cycle in each calendar quarter in which movement of
the Prime Rate dictates a change. Calendar quarters begin
January 1, April 1, July 1, and October 1 of each year. I
understand that my monthly periodic rate will be 1/12th of the
applicable APR. If there is an increase in the Prime Rate, my
minimum monthly payment may also increase. Likewise, if
the Prime Rate decreases, my minimum monthly payment may
also decrease. However, in no event will the Annual
Percentage Rate exceed 18.0% (which corresponds to a
monthly rate of 1.5%)
MONTHLY PAYMENTS

Cardholder(s) agree to pay monthly on or before the payment
due date either: (i) the total “New Balance” which includes
any of the previous unpaid balances, purchases, cash
advances, payments and credits or (ii) at least the “Minimum
Payment” required, which is the greater of $15.00 or 3% of
the outstanding “New Balance” as shown on the monthly
statement. Payment “Due Date” on the statement is twentyfive (25) days from the statement’s “Closing Date.” The
amounts paid as part of the Minimum Payment and all
amounts paid over the Minimum Payment are applied to
balances as permitted by law. We do not charge interest on
interest.
All payments shall be considered made when received on any
business day (excluding federal holidays), when received at
Tinker Federal Credit Union’s billing address, P.O. Box
45750, Tinker AFB, OK 73145, and when accompanied by the
return portion of the cardholder statement

CREDIT CARD LOSS OR FRAUDULENT TRANSFERS
Under the Fair Credit Billing Act, your liability for
unauthorized use of your card is capped at $50. However, if
you report the loss of your card before your credit card is used,
you are not responsible for any charges you did not authorize.
Likewise, if you exercise reasonable care in safeguarding your
card from loss or theft and promptly report any loss or theft of
your card to TFCU you have ZERO liability. TFCU must be
notified of loss, theft, or possible unauthorized use of the
credit card by notification in person, by calling (405) 7320324, option 6, or 1-800-456-4828, option 6, or by writing to
TFCU at P.O. Box 45750, Tinker AFB, Oklahoma 73145,
Attn: Credit Card Department. If your credit card number is
stolen, but not the card, you are not liable for any unauthorized
use. If you dispute any transaction, while we investigate, you
must timely pay other amounts owing, including finance
charges on the disputed amount.
ATTORNEY’S FEES
Cardholder agrees to pay all reasonable costs of collection
including reasonable attorney’s fees not in excess of fifteen
percent (15%) of the unpaid debt, court costs, and other lawful
charges incurred by the Credit Union in collecting the
cardholder’s indebtedness, whether or not suit is brought.
DISCLAIMER OF LIABILITY
The Credit Union shall not be responsible if a merchant or
financial institution shall refuse to honor any card. Refusal to
honor shall not affect or impair the obligation of cardholder to
pay all sums due on an account in accordance with the terms
hereof. Notices hereunder shall be effective only if given in
writing to Credit Union at its office and to cardholder at my
last known mailing address, as shown on Credit Union’s
records.
OWNERSHIP OF CARDS
Card(s) shall at all times remain the property of the Credit
Union; the cardholder agrees to surrender them upon demand.
The Credit Union may revoke the credit cards and cancel my
line of credit if issuer reasonably believes prospects of
repayment are impaired, then the unpaid balance becomes
immediately due and payable at once and my line of credit is
cancelled. If Credit Union revokes the credit cards and
cancels the credit line, this does not affect cardholder’s
obligations to repay the credit union. Cardholder may cancel
3

account by written notice and return of the cut cards to the
Credit Union’s Credit Card Department.

AMENDMENT
I agree that the terms of this Agreement are applicable to any
cardholder. I also agree that Credit Union may change the
terms of this Agreement at any time with written notice
required by law before the change becomes effective. Any
changes to the Agreement may apply to all outstanding
indebtedness incurred before, on, or after the effective date of
the changes. Cardholder’s failure to terminate the account
prior to the effective date of an Amendment shall constitute
acceptance of such Amendment. To terminate the account, all
credit cards must be returned to Tinker Federal Credit Union
Credit Card Department and the cardholder will be required to
pay the account in accordance with the terms of the
Cardholder Agreement and Disclosure Statement.
CHOICE OF LAW
I acknowledge and understand that the obligations under this
Agreement represented by charges to my account(s) were
contracted for and became binding when the sales drafts, card
slips or other credit devices were accepted by the Credit Union
and caused the holder of the same to be paid, and this occurred
in Oklahoma County, and the courts of Oklahoma County
shall have venue to try controversies arising out of this
agreement. If any portion of the Agreement is determined to
be unenforceable, it will not make any other part
unenforceable.
IRREGULAR PAYMENTS: DELAY IN
ENFORCEMENT
The Credit Union can accept late payments, partial payments,
checks and money orders marked “Paid in Full” or language
having the same effect without losing any of the cardholder’s
rights under this Agreement. The Credit Union can also delay
enforcing our rights under this Agreement any number of
times without losing them. The fact that the Credit Union may
honor a purchase or cash advance in excess of the credit limit
does not obligate the Credit Union to do so thereafter.
EVENTS OF DEFAULT
I will be in default under this Plan and Agreement if any of the
following events shall occur:
(a) If I fail to comply with the minimum payment or any
other terms or conditions of this Agreement I may have
with you;
(b) If I should die or become insolvent;
(c) If a petition should be filed or other proceeding should be
started under the Federal Bankruptcy Code or any State
insolvency Statute by or against me;
(d) If a receiver should be appointed or a writ or order of
attachment, levy or garnishment should be issued against
me or any of my property, assets or income;
(e) If Credit Union should consider itself or any debts due
under this Agreement unsafe or not completely secure of
if Credit Union should believe, in good faith, that the
chances of my paying or performing all of my obligations
under this Agreement have been impaired; or
(f) If anything in the application or use of this card is
misrepresented or used for any fraudulent purchase.
ENTIRE BALANCE DUE

If any of the above events of default should occur, my entire
outstanding balance shall immediately become due and
payable, without Credit Union notifying me, with interest due
on the balance at the applicable APR as provided herein per
year until paid, and Credit Union’s obligations to honor my
use of the card to get credit extensions from anyone or to
make further advances to me shall, at Credit Union’s option,
and without notice, immediately end. If I fail to pay the
outstanding balance immediately, on Credit Union’s demand, I
agree to pay all of Credit Union’s collection expenses,
including Credit Union’s reasonable attorney’s fees.
FOREIGN EXCHANGE RATE AND INTERNATIONAL
SERVICE ASSESSEMENT (ISA) FEE
On all international purchases, credit vouchers, and cash
disbursements (which would include credit purchases and cash
advances), i.e. all transactions where a merchant country
differs from the country of the card issuer (1) the foreign
exchange rate which will be charged will be a rate selected by
VISA from the range of rates available in wholesale currency
markets for the applicable processing date (which may vary
from the rate VISA itself receives) or the government
mandated rate in effect for the applicable central processing
date and (2) in addition, a one percent (1%) International
Service Assessment (ISA) fee will be charged.
ILLEGAL TRANSACTIONS
A credit card may not be used for an illegal transaction.
Certain transactions are prohibited from being processed
through your account with the Credit Union under the
Unlawful Internet Gambling Enforcement Act of 2006 (“the
Act”) and related regulations issued by the Board of
Governors of the Federal Reserve System and the United
States Department of the Treasury (“Regulation GG”). The
Credit Union is required by the Act and Regulation GG to
inform you of this restriction.
The transactions which are prohibited are the following
transactions or transmittals involving any credit, funds,
instrument, or proceeds that the Act prohibits any person
engaged in the business of betting or wagering (except for the
activities of a financial transaction provider, or any interactive
computer service or telecommunications service) from
knowingly accepting, in connection with the participation of
another person in unlawful Internet gambling:
■ Credit, or the proceeds of credit, extended to or on behalf of
such person (including credit extended through the use of a
credit card);
■ An electronic fund transfer, or funds transmitted by or
through a money transmitting business, or the proceeds of an
electronic fund transfer or money transmitting service, from or
on behalf of such other person; and
■ Any check, draft, or similar instrument that is drawn by or
on behalf of such other person and is drawn on or payable at
or through any financial institution.
Internet gambling will generally be deemed to be unlawful
unless it is expressly authorized by license issued by an
appropriate State or Tribal authority.
CREDIT INVESTIGATION
Since Credit Union has the sole right to approve my
application and allow me to use the card(s) now and in the
future, I authorize Credit Union at any time to make or have
4

made whatever credit investigation Credit Union feels is
proper to evaluate my credit, personal or financial standing
and /or employment, and I authorize Credit Union to share my
credit experience with credit bureaus. I also agree to furnish
Credit Union current financial statements in such details as
Credit Union may require on an annual basis and more
frequently at Credit Union’s request.

For the purpose of the following sections only, “You”/”Your”
means all persons who have signed the application for Visa
and used or permitted others to use the card; and “Us”/”We”
means Tinker Federal Credit Union of PO Box 45750, Tinker
Air Force Base, Oklahoma 73145.
YOUR PERSONAL IDENTIFICATION NUMBER
Within the next few days, you will be receiving a Personal
Identification Number (PIN). This personal identification
number is being assigned to your account to allow you access
to ever-expanding networks of automated teller machines
(ATMs) in this area, across the country, and overseas.
Because each ATM is slightly different, simply insert your
card in the slot and follow the directions that will appear on
the screen. Some important directions will come with the
identification number, and we ask that you follow those
instructions carefully to protect your card from unauthorized
use.
AUTOMATIC UPDATE SERVICE
As part of the services provided by VISA, VISA now requires
card issuers to participate in the VISA Automatic Updater
(“VAU”) services. VISA will monitor changes to your account
information and automatically update your account
information, if changes to your account are detected by VISA.
The auto-updated information may include a change in your
name, card account number, and other important and relevant
information impacting your card account and potential
activity; this will allow you to continue to use your card
without interruption. If you do not want your information to be
automatically updated by VISA, then please contact us to
discuss options.

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT
FOR FUTURE USE
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR
STATEMENT
If you think there is an error on your statement, write to us at
Tinker Federal Credit Union, P.O. Box 45750, Tinker AFB,
Oklahoma 73145, Attn: Credit Card Department.
In your letter give us the following information:
 Account information: Your name and account number.
 Dollar amount: The dollar amount of the suspected
error.
 Description of problem: If you think there is an error
on your bill, describe what you believe is wrong and
why you believe it is a mistake.
You must contact us:




Within 60 days after the error appeared on your
statement.
At least 3 business days before an automated payment
is scheduled, if you want to stop payment on the
amount you think is wrong.

You must notify us of any potential errors in writing. You
may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the amount in
question.
WHAT WILL HAPPEN AFTER WE RECEIVE YOUR
LETTER
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell
you that we received your letter. We will also tell
you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must
either correct the error or explain to you why we
believe the bill is correct.
While we investigate whether or not there has been an
error:
 We cannot try to collect the amount in question, or
report you as delinquent on that amount.
 The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
 While you do not have to pay the amount in question,
you are responsible for the remainder of your balance.
 We can apply any unpaid amount against your credit
limit.
After we finish our investigation, one of two things will
happen:
 If we made a mistake: You will not have to pay the
amount in question or any interest or other fees related
to that amount.
 If we do not believe there was a mistake: You will
have to pay the amount in question, along with
applicable interest and fees. We will send you a
statement of the amount you owe and the date payment
is due. We may then report you as delinquent if you
do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that you
still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those
organizations know when the matter has been settled between
us.
If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill
is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH
YOUR CREDIT CARD PURCHASES
If you are dissatisfied with the goods or services that you have
5

purchased with your credit card and you have tried in good
faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home
state or within 100 miles of your current mailing
address, and the purchase price must have been more
than $50. (Note: Neither of these are necessary if
your purchase was based on an advertisement we
mailed to you, or if we own the company that sold
you the goods or services.)
2. You must have used your credit card for the
purchase. Purchases made with cash advances from
an ATM or with a check that access your credit card
account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at:
Tinker Federal Credit Union
P.O. Box 45750
Tinker AFB, OK 73145
Attn: Credit Card Department
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you
owe any amount and you do not pay, we may report you as
delinquent.

6

